No. 19-511
In the

Supreme Court of the United States
FACEBOOK, INC.,
Petitioner,
v.
NOAH DUGUID, INDIVIDUALLY AND
ON BEHALF OF HIMSELF AND ALL
OTHERS SIMILARLY SITUATED,
Respondent,
and
UNITED STATES OF AMERICA,
Respondent-Intervenor.
On Writ of Certiorari to the United States
Court of A ppeals For the Ninth Circuit
BRIEF OF AMICI CURIAE LIFE INSURANCE
DIRECT MARKETING ASSOCIATION, AMERICAN
PROPERTY CASUALTY INSURANCE ASSOCIATION,
AND CONSUMER CREDIT INDUSTRY
ASSOCIATION IN SUPPORT OF PETITIONER

Ernesto R. Palomo
Counsel of Record
Brian I. Hays
(admission pending)
W. Patrick Conlon
Locke Lord LLP
111 S. Wacker Dr., Suite 4100
Chicago, IL 60606
(312) 443-0700
epalomo@lockelord.com
Counsel for Amici Curiae
298483

i
TABLE OF CONTENTS
Page
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . . i
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . . . . ii
INTEREST OF AMICI CURIAE . . . . . . . . . . . . . . . . . . 1
INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
SUMMARY OF ARGUMENT  . . . . . . . . . . . . . . . . . . . . 4
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
I.

The Ninth Circuit Removed the Automatic
from Automatic Telephone Dialing System . . . . 6

II. The Ninth Circuit’s Erroneous Re-Write of the
Statute Has Significant Practical and First
Amendment Consequences . . . . . . . . . . . . . . . . . . 7
A. The Ninth Circuit’s Interpretation Would
Turn Every Smartphone into an ATDS . . . 8
B. Prohibiting Calls from Smartphones
to Cellphones Does Not Advance Any
Legitimate Governmental Interest . . . . . . . 9
C. A n Ex pa nsive Def i n it ion of a n
ATDS Will Have a Chilling Effect
on Com mu n ic at ions Consu mer s
Want and Need . . . . . . . . . . . . . . . . . . . . . . . 11
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14

ii
TABLE OF CITED AUTHORITIES
Page
CASES
62 Cases, More or Less, Each Containing Six
Jars of Jam v. United States,
340 U.S. 593 (1951)  . . . . . . . . . . . . . . . . . . . . . . . . 7
Blount v. Rizzi,
400 U.S. 410 (1971)  . . . . . . . . . . . . . . . . . . . . . . . . 7
Duran v. La Boom Disco, Inc.,
955 F.3d 279 (2d Cir. 2020) . . . . . . . . . . . . . . . . . . 7
Frisby v. Schultz,
487 U.S. 474 (1988)  . . . . . . . . . . . . . . . . . . . . . . . . 9
Marks v. Crunch San Diego, LLC,
904 F.3d 1041 (9th Cir. 2018)  . . . . . . . . . . . . . . . . 7
U.S. v. Stevens,
559 U.S. 460 (2010) . . . . . . . . . . . . . . . . . . . 8, 9, 10
Ward v. Rock Against Racism,
491 U.S. 781 (1989)  . . . . . . . . . . . . . . . . . . . 7-8, 10
Washington State Grange v. Washington State
Republican Party,
552 U.S. 442 (2008) . . . . . . . . . . . . . . . . . . . . . . . 10

iii
Cited Authorities
Page
STATUTES, RULES, AND REGULATIONS
47 U.S.C. § 227(a)(1) . . . . . . . . . . . . . . . . . . . . . . . . 4, 6
47 U.S.C. § 227(b)(1)(A)  . . . . . . . . . . . . . . . . . . . . . . . 6
Sup. Ct. R. 37.6,  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

OTHER AUTHORITIES
CHSI Technologies, Four Insurtech Trends in
2019 for Small Insurers (Aug. 8, 2019) . . . . . . . . 12
Dwyer, Katie, Improving the Claims Experience
(Jan. 10, 2018)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
Institute, Facts + Statistics: Distribution Channels
(2020) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
Pew Research Center, Mobile Fact Sheet
(June 12, 2019) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
Reimaging Customer Relationships: Key Findings
from the EY Global Consumer Insurance
Survey 2014 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
Richter, Felis, Landline Phones Are a Dying
Breed (June 15, 2020)  . . . . . . . . . . . . . . . . . . . . . . 8

iv
Cited Authorities
Page
Survey Finds Mobile Technologies Saving U.S.
Small Businesses More Than $65 Billion a Year
(May 14, 2015) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
Wassink, Bernhard, Castagnetta, Avril, Metz,
Simon, Life Insurance Distribution at a
Crossroads (2015) . . . . . . . . . . . . . . . . . . . . . . . . . 12
Why Claims Service Matters (2014)  . . . . . . . . . . . . 13

1
INTEREST OF AMICI CURIAE1
Life Insurance Direct Marketing A ssociation
(“LIDMA”) is a non-profit organization dedicated to
supporting businesses and professionals that directly
sell life insurance products to consumers. LIDMA is
the primary voice for life insurance direct response
industry producers, carriers, business partners and
exam companies. LIDMA’s members include insurance
companies, insurance agents and insurance brokers (agents
and brokers are collectively referred to as “insurance
producers”) who market insurance to consumers and
businesses and provide related services.
American Property Casualty Insurance Association
(“APCIA”) is the primary national trade association for
home, auto, and business insurers. APCIA promotes and
protects the viability of private competition for the benefit
of consumers and insurers, with a legacy dating back 150
years. APCIA members represent all sizes, structures,
and regions—protecting families, communities, and
businesses in the U.S. and across the globe.
Consumer Credit Industry Association (“CCIA”,
collectively LIDMA, APCIA, and CCIA will be referred
to as the “Insurance Associations”) is a non-profit
national trade association of insurance companies and
other financial service providers that manufacture, sell
or service consumer credit insurance and other consumer
1. Pursuant to Rule 37.6, counsel for all parties have provided
written consent to the filing of this brief. No counsel for any party
authored this brief in whole or in part, and no person or entity other
than amici, amici’s members, or amici’s counsel made a monetary
contribution to fund its preparation or submission.

2
asset and debt protection products and services typically
provided in connection with consumer credit transactions
whether or not insurance. Its member insurance companies
account for a significant majority of the national volume
written for these lines of business.
The Insurance Associations have a substantial
interest in this case because their members have been or
are subject to being names as defendants in lawsuits filed
in jurisdictions across the country under the Telephone
Consumer Protection Act (“TCPA”). While cell phones
have become one of the primary—and preferred— means
by which a policyholder may be reached, there is not
an efficient or cost-effective approach to sending such
messages without risking lawsuits under the TCPA as
currently interpreted by the Second, Sixth, and Ninth
Circuits.
Accordingly, the Insurance Associations on behalf of
their members have a substantial and particular interest
in this case because the Ninth Circuit’s interpretation of
the definition of an automatic telephone dialing system
(“ATDS”) prevents the Insurance Association’s members
from effectively communicating important—though not
emergency—messages to policyholders and consumers
without facing potential TCPA lawsuits.
INTRODUCTION
Helping businesses and families protect themselves
from financial risk caused by unexpected accidents,
catastrophes, and other losses is essential to getting
businesses and people back on their feet after an accident
or death. Property, casualty, and life insurers, as well

3
as insurance producers, regularly contact their current
customers and consumers who have expressed an interest
in purchasing insurance. These are not the random or
sequentially dialed calls to individuals with no relationship
to the caller that the TCPA’s prohibition against using
random or sequential number generators was designed to
prevent. Insurers and insurance producers call customers
with renewal reminders and reminders of premium
payments to prevent customers from losing coverage.
They call about new products and discounts to help
consumers save money. They call with updates on claims
to keep customers who have suffered a loss up-to-date
on the status of their claims. Customers and consumers
welcome these calls because they help ensure that their
businesses and families are protected. The TCPA was
never intended to prohibit these kinds of calls simply
because the telephone numbers are stored in a database.
In an increasingly digital world, more and more
businesses and consumers use cell phones as their primary
and preferred method of contaict. Class action plaintiffs’
lawyers have exploited the TCPA to target, among others,
insurance companies and insurance producers, threatening
millions of dollars in liability for placing calls to the cell
phone numbers provided by customers and consumers.
While insurers and insurance producers endeavor to only
contact customers and consumers who have consented
to receiving calls, they should not be broadlty subject
to liability under the TCPA if their efforts occasionally
result in calls reaching individuals or businesses who have
not consented as a result of clerical error in entering a
telephone number or because a telephone number has been
reassigned. The TCPA as re-written by the Ninth Circuit
threatens to stifle important calls between insurance

4
companies, insurance producers and customers intended
to assist businesses and individuals in protecting their
property and families.
SUMMARY OF ARGUMENT
The Insurance Associations’ interest in this case
arises from the application of the TCPA to their member
insurance companies and insurance producers. Insurers
and insurance producers store telephone numbers of
their customers and prospective customers in computer
databases and on employees’ smartphones. They make
targeted telephone calls to these businesses and individual
to sell insurance, renew policies, provide and obtain
information to update coverages, and handle insurance
claims.
Congress enacted the TCPA to target specific types
of telephone calls—calls that play a prerecorded message
and calls made to emergency telephone numbers, hospital
rooms, and wireless numbers generated by a random
or sequential number generator. The TCPA defines
“autodialer” as “equipment which has the capacity—(A)
to store or produce telephone numbers to be called, using
a random or sequential number generator; and (B) to
dial such numbers.” 47 U.S.C. § 227(a)(1). The definition
requires two separate and distinct components joined by
the conjunctive “and,” signifying that both components
must be present. The Ninth Circuit’s attempt to re-write
the definition of an ATDS broadens what is covered by
the definition beyond what was intended by Congress,
essentially drawing in all dialing systems that store
telephone numbers, and completely ignores the plain
language of the statute which requires the dialing

5
equipment to have the capacity to generate random or
sequential telephone numbers to qualify as an ATDS.
The Ninth Circuit’s holding that the definition of
an ATDS covers any telephone that can store telephone
numbers and dial those numbers raises serious practical
and constitutional concerns. Such a broad definition would
convert every smartphone and virtually every modern
telephone into an ATDS and expose companies and
individuals to significant statutory damages under the
TCPA for telephone calls on a daily basis. There is simply
no support either in the plain language of the statute or in
the legislative history for the proposition that Congress
intended to make routine, every day calls from one
cellphone to another unlawful. Prohibiting calls between
smartphones serves no legitimate governmental purpose
and would have a chilling effect on communications that
consumers want and need.
This Court should reverse the Ninth Circuit’s decision
and adopt the narrow definition of an ATDS that is
grounded in the plain language of the ATDS definition
which only covers equipment that has the capacity to use
a random or sequential number generator. Limiting TCPA
violations based on ATDS calls by random and sequential
telephone number generators reflects the balance struck
by Congress of protecting certain types of telephone
numbers from being tied up on random or sequential
number dialers or that shift costs to the consumer while
still protecting the practical and constitutional rights
of individuals and companies to communicate with
consumers, using efficient and preferred communication
tools, to provide vital services and products.

6
ARGUMENT
I.

The Ninth Circuit Removed the Automatic from
Automatic Telephone Dialing System

The TCPA makes it unlawful to make any call to
any emergency telephone line, guest room or patient
room, or to any telephone number assigned to a paging
service, cellular telephone service, specialized mobile
radio service, or other radio common carrier service,
or any service for which the called party is charged
for the call using an ATDS without the prior express
consent of the called party. 47 U.S.C. § 227(b)(1)(A). The
TCPA defines an “automatic telephone dialing system”
(“ATDS”) as “equipment which has the capacity (A) to
store or produce telephone numbers to be called, using a
random or sequential number generator; and (B) to dial
such numbers.” 47 U.S.C. § 227(a)(1). The “automatic”
component included in the definition is the ability of
the system to generate random or sequential telephone
numbers. The Ninth Circuit’s rearticulation of the ATDS
definition eliminates the automatic component for systems
that dial stored telephone numbers. The court held that
to qualify as an ATDS, the system “need only have the
‘capacity’ to store numbers to be called.” Pet.App. 8
(quoting 447 U.S.C. § 227(a)(1)). Clearly an interpretation
of “automatic telephone dialing system” that does not
require any automatic capacity require ignores moth the
plain text and congressional intent.
In an effort to solve the problem that an ADS no
longer has to be automatic when it calls stored numbers
under the Ninth Circuit’s re-writing definition, the Ninth
Circuit and other courts improperly have added the

7
word “automatically” to the end of subsection (B) of the
statutory definition which addresses calling the numbers:
The Ninth Circuit rewrote the definition as “equipment
which has the capacity—[A](1) to store numbers to be
called or (2) to produce numbers to be called, using a
random or sequential number generator—[B] and to dial
such numbers automatically.” Pet.App.4 (quoting Marks
v. Crunch San Diego, LLC, 904 F.3d 1041, 1053 (9th Cir.
2018)). See also Duran v. La Boom Disco, Inc., 955 F.3d
279, 287-90 (2d Cir. 2020) (ATDS must have the capacity
to dial numbers “without human intervention”). But the
word “automatically” does not appear in the statutory
definition. It is well settled that courts may not rewrite
statutes by adding or subtracting words. See 62 Cases,
More or Less, Each Containing Six Jars of Jam v. United
States, 340 U.S. 593, 596 (1951) (courts are not “to add nor
to subtract, neither to delete nor to distort” the words
Congress has used); Blount v. Rizzi, 400 U.S. 410, 419
(1971) (“[I]t is for Congress, not this Court, to rewrite
the statute.”) If Congress had wanted to ban all dialing
systems that dialed numbers automatically, it would have
done so.
II. The Ninth Circuit’s Erroneous Re-Write of the
Statute Has Significant Practical and First
Amendment Consequences
To impose restrictions on the time, place, or manner
of protected speech, the government must show that
the restrictions are (1) justified without reference to the
content of the regulated speech, (2) narrowly tailored to
serve a significant governmental interest, and (3) leave
open ample alternative channels for communication of
the information. Ward v. Rock Against Racism, 491 U.S.

8
781, 791 (1989). In an increasingly digital world, the Ninth
Circuit’s definition of an ATDS that goes beyond the plain
wording of the statute would apply broadly to smartphone
calls and cannot be justified as serving any governmental
interest, or be narrowly tailored to accomplish such
purpose. Prohibiting the use of smartphones to call
cellphones without prior express or written consent for
sales calls creates significant obstacles to the ability
to communicate with cellphone-only consumers and
businesses.
A.

The Ninth Circuit’s Interpretation Would Turn
Every Smartphone into an ATDS

The first step in any overbreadth analysis is to
determine what the statute covers. U.S. v. Stevens,
559 U.S. 460, 474 (2010). The Ninth Circuit’s proposed
interpretation of an ATDS is clearly overbroad. The Ninth
Circuit held that the TCPA covers every smartphone and
most other modern telephone equipment because they
can store numbers to be called. Pet.App. 8-9. According
to the Pew Research Center, 96% of Americans own
a cellphone and 81% own smartphones. Pew Research
Center, Mobile Fact Sheet (June 12, 2019), https://pewrsr.
ch/31csbS5. Almost 60% of households do not even have
a landline anymore, relying on their cellphones for all
communications. Richter, Felis, Landline Phones Are
a Dying Breed (Jun. 15 2020) https://www.statista.
com/chart/2072/landline-phones-in-the-united-states/.
The Ninth Circuit’s interpretation would turn every
smartphone user into potential TCPA violators, depending
on whether the caller obtained the cellphone number
directly from the called party.

9
This expansive definition of an ATDS would also turn
regular business calls into TCPA violations. In 2014, a
survey conducted by AT&T found that 94% percent of
small businesses used smartphones to conduct business.
Nearly half of small business owners with smartphones
use them to conduct business seven days a week. Survey
Finds Mobile Technologies Saving U.S. Small Businesses
More Than $65 Billion a Year (May 14, 2015) https://about.
att.com/story/survey_finds_mobile_technologies_saving_
us_small_businesses_more_than_65_billion_a_year.html.
Using smartphones allows business owners and their
employees to work remotely.
Assurances from the Government or the plaintiffs’ bar
that they would never file suit over individual calls between
friends or businesses does not save the Ninth Circuit’s
overbroad definition. As this Court has explained: “We
should not uphold an unconstitutional statute merely
because the Government promises to use it responsibly.”
Stevens, 559 U.S. at 480. Rather, such assurances are an
implicit acknowledgment of the constitutional problems
with the Ninth Circuit’s re-write of the statute. Id.
B. Prohibiting Calls from Smartphones to
Cellphones Does Not Advance Any Legitimate
Governmental Interest
A time, place, or manner regulation may not burden
substantially more speech than is necessary to further
the government’s legitimate interests. The government
may not regulate speech in such a way that a substantial
portion of the burden on speech does not serve to advance
its goals. See Frisby v. Schultz, 487 U.S. 474, 485 (1988)
(“A complete ban can be narrowly tailored but only if each

10
activity within the proscription’s scope is an appropriately
targeted evil”). If the means chosen by the government
are substantially broader than necessary to achieve the
government’s interest, the regulation is not valid. Ward,
491 U.S. at 799-800. See also Stevens, 559 U.S. at 473
(quoting Washington State Grange v. Washington State
Republican Party, 552 U.S. 442, 449, n. 6 (2008)) (law may
be invalidated as overbroad if “a substantial number of
its applications are unconstitutional, judged in relation to
the statute’s plainly legitimate sweep.”).
The Ninth Circuit justified its application of the
definition of ATDS to smartphones by arguing that it
“supports the TCPA’s animating purpose—protecting
privacy.” Pet.App. 9. Prohibiting friends, acquaintances,
and businesses from using their smartphones to make
calls or send text messages to cellphones does not
advance any privacy interest, nor is it targeted at the
evil of unsolicited calls from marketers with whom the
consumer has no relationship. Under the Ninth Circuit’s
reading, a sales person sitting at her desk is free to use
her landline (if she still has one) to call a prospect but
would violate the prospect’s privacy interest if she used
her smartphone to make the same call. A business man
would need to wait until he returned to his office to return
a call to a consumer who called to buy a product because
calling from outside the office using a smartphone might
be perceived to invade the privacy of the consumer. The
Court should not interpret the ATDS statute in a way that
would lead to such absurd results.
Adopting the limited definition of an ATDS based on
the plain language of the statute that targets systems
that have the capacity to generate random and sequential

11
telephone number and to dial those numbers is clearly
the correct approach, since it avoids sweeping people who
are simply going about their daily lives into the dragnet
of TCPA violations.
C.

An Expansive Definition of an ATDS Will
Have a Chilling Effect on Communications
Consumers Want and Need

The insurance industry provides a perfect example of
the harm to consumers from making calls to customers
unlawful and highlights the types of communications
that should not be covered by the TCPA. Individuals
and businesses want and need to buy insurance. The
majority of insurance is still sold through independent
brokers who offer products from more than one insurer
and insurance agents who are affiliated with one insurer.
Insurance Information Institute, Facts + Statistics:
Distribution Channels (2020), https://www.iii.org/factstatistic/facts-statistics-distribution-channels. Small
insurance agencies with less than $150,000 in revenue
accounted for 35% of all agencies. Id. Consumers find
insurance agents and vice versa through a variety of
channels including referrals from friends and business
associates, responding to mailings, seeing advertisements,
and lead prospecting. Prohibiting insurance agents from
using their smartphones to call potential customers and
insisting that all calls be made from a landline serves no
legitimate government purpose and imposes barriers on
speech.
Insurance also involves an ongoing relationship
between consumers and their insurers, and insurance
producers. Insurance policies must be renewed every year.

12
Circumstances may change for a particular policyholder
during the term of a policy that may require additional,
different, or less insurance. Individuals suffer losses and
need to file claims. Often after a major loss from a building
fire, hurricane, or other disaster, a cell phone is the only
way to reach the policyholder.
Industry surveys of policyholders have shown that
insurance consumers want and expect their insurance
companies and insurance producers to call them. Customers
want to learn about special deals and promotions, update
policies, and receive help making sure that their coverages
are up-to-date so that their businesses and families
are protected. See Reimaging Customer Relationships:
Key Findings from the EY Global Consumer Insurance
Survey 2014, pp. 32-33, https://www.ey.com/Publication/
v wLUA ssets/ey-2 014 -global- customer-insurance survey/$FILE/ey-global-customer-insurance-survey.
pdf; Wassink, Bernhard, Castagnetta, Avril, Metz,
Simon, Life Insurance Distribution at a Crossroads
(2015), p. 5 (“consumers want more contact with their
agent/carrier”), https://www.the-digital-insurer.com/
wp-content/uploads/2016/01/636 -ey-life-insurancedistribution-at-a-crossroads.pdf. Insurers are developing
programs that automatically alert the insurer or the agent
when a policy is about to lapse or is up for renewal and adds
the customer to a list to be called. CHSI Technologies,
Four Insurtech Trends in 2019 for Small Insurers (Aug. 8,
2019), https://chsiconnections.com/four-insurtech-trendsin-2019-for-small-insurers/#:~:text=It%20is%20the%20
driving%20force,schedule%20contact%20with%20the%20
insured%3B&text=Policy%20selection%2C%20which%20
suggests%20coverage,based%20on%20recent%20life%20
events.

13
Insurers have also been developing automated
programs to make the claims process easier and quicker
to meet the demands of an increasingly digital customer
base. Customers want speed and transparency in the
claims process. Why Claims Service Matters (2014), p. 5
https://www.accenture.com/t20150523T041505__w__/usen/_acnmedia/Accenture/Conversion-Assets/Microsites/
Documents15/Accenture-Insurance-Claims-Survey-Web.
pdf. Customers want to be able to communicate with
their insurers and insurance agents using the customers’
preferred channels. Id. The automated claims programs
are designed to send real time notifications to customers
informing them of claim events and the status of their
claims. Dwyer, Katie, Improving the Claims Experience
(Jan. 10, 2018), https://riskandinsurance.com/improvingclaims-experience/.
The Ninth Circuit’s expansive reading of the definition
of an ATDS goes beyond the plain language of the statute.
The court’s interpretation imposes roadblocks unduly
preventing insurers and insurance producers from calling
their customers. The TCPA was designed to target specific
technology in use in 1991 that was harmful to consumers –
automated prerecorded messages and systems that dialed
random or sequentially generated telephone numbers.
The restrictions on random and sequential number
generators have been a resounding success. If Congress
wishes to craft new legislation targeted at any of the new
technologies it knows how to do so. But the courts should
not step in to re-write statutes to cover new technology
not contemplated at the time a statute was written.

14
CONCLUSION
For the foregoing reasons, the Court should reverse
the judgment of the Ninth Circuit and hold that the
definition of an ATDS is limited to systems that have
the capacity to generate random or sequential telephone
numbers.
Respectfully submitted,
Ernesto R. Palomo
Counsel of Record
Brian I. Hays
(admission pending)
W. Patrick Conlon
Locke Lord LLP
111 S. Wacker Dr., Suite 4100
Chicago, IL 60606
(312) 443-0700
epalomo@lockelord.com
Counsel for Amici Curiae
September 11, 2020

